APPENDIX A

UNITED STATES COURT OF APPI

FILED
United States Court of Appeal:
Tenth Circuit
August 7, 2019

FOR THE TENTH CIRCUIT

Elisabeth A. Shumaker
Clerk of Court
In re: JASON BROOKS,

Lteft.-JAr,iasr.l.......

(D.C.No. 1:18-CR-02666-LTB)
(D. Colo.)

Movant.

ORDER

Before LUCERO, MATHESON, and McHUGH, Circuit Judges.
Jason Brooks, a Colorado state prisoner proceeding pro se, seeks authorization to
file a second or successive 28 U.S.C. § 2254 habeas application challenging his Colorado
conviction for securities fraud. We deny authorization.
In 2010, Brooks pleaded guilty to four counts of securities fraud and was
sentenced to 32 years’ imprisonment. He filed his first § 2254 petition in 2014 claiming
he received an inadequate plea advisement and ineffective assistance of counsel and
challenging the state court’s denial of the post-conviction motion in which he had raised
essentially the same claims. The district court dismissed most of the claims as
procedurally barred and denied the remaining claim on the merits. We denied Brooks’
application for a certificate of appealability (COA) and dismissed the matter. See Brooks
v. Archuleta, 621 F. App’x 921, 922,928 (10th Cir. 2015).
Since then, Brooks has filed numerous unsuccessful post-conviction motions in
state court, second or successive habeas petitions in federal district court (including

motions under Fed. R. Civ. P. 60(b) that the court construed as second or successive),
requests in this court for COAs to allow him to appeal the denial of those petitions, and

motions for authorization to file second or successive habeas applications. Most of those
proceedings involved claims relating to the requirement under state law that he pay
interest on the approximately $5 million in restitution he agreed to pay as part of the plea
agreement.
-In his current-application,- Brooks seeks to-challenge his-eonviction-on the gfbundthat it is invalid and violates due process principles because, despite his admission of
guilt, the “notes” he was selling were not securities within the meaning of the Colorado
Securities Act (CSA). See Mot. for Auth. at 7-16. To be eligible for authorization,
Brooks must show that his proposed claims rely on either newly discovered facts
demonstrating his innocence or a new rule of constitutional law that the Supreme Court
has made retroactively applicable to cases on collateral review. 28 U.S.C.
§ 2244(b)(2)(A), (2)(B), (3)(C). To obtain authorization based on a new factual
predicate, he must make a prima facie showing that the new facts “could not have been
discovered previously through the exercise of due diligence” and that they “would be
sufficient to establish by clear and convincing evidence that... no reasonable factfinder
would have found [him] guilty of the underlying offense.” § 2244(b)(2)(B)(i), (ii).
Brooks’ proposed claims do not meet these requirements. He purports to rely on
both the new-rule-of-law and newly-discovered-facts provisions as the basis for
authorizing the claims, but he cites no new rule of retroactively applicable constitutional
law. Nor does he cite any new facts. Instead, he claims that under a state case issued in
2

2015, the notes he sold and that underpin his securities fraud conviction were not
securities within the meaning of the CSA. People v. Mendenhall, 363 P.3d 758, 767-69

(Colo. App. 2015) (holding that “not all notes involve investments or constitute
securities” and adopting the test used to determine whether a note is a security under the
Securities Exchange Act in interpreting the meaning of “any note” under the CSA). And,
relying on the holding in Class v. United States, 138 S. Ct. 798, 803 (2018), that a guilty
“pleaby-itselP-doesnotEan-a-eriminahdefendant—from-challenging-the'Gonstitutiohality—
of the statute of conviction on direct appeal,” Brooks maintains he should be permitted to
challenge the constitutionality of the CSA on void-for-vagueness grounds in a second or
successive § 2254 application.
But neither Mendenhall nor Class announces a new rule of constitutional law that
the Supreme Court has made retroactively applicable to cases on collateral review. And
contrary to Brooks’ claim that these cases satisfy the new-facts requirement because he
was unaware of them until recently, learning of a new legal theory is not the discovery of
a new fact. Cf F.D.I.C. v. Arciero, 741 F.3d 1111, 1118 (10th Cir. 2013) (“[L]eaming of
a new legal theory is not the discovery of new evidence.”).
Because Brooks has failed to meet the standard for authorization in § 2244(b), we
deny his motion. This denial of authorization “shall not be appealable and shall not be
the subject of a petition for rehearing or for a writ of certiorari.” § 2244(b)(3)(E).
Entered for the Court

ELISABETH A. SHUMAKER, Clerk
3

APPENDIX B

Appellate Case: 20-1326

Document: 010110490958

Date Filed: 03/09/2021

UNITED STATES COURT OF APPEALS

Page: 1

FILED
United States Court of Appeals
Tenth Circuit
March 9, 2021

FOR THE TENTH CIRCUIT

Christopher M. Wolpert
Clerk of Court
JASON BROOKS,
Petitioner - Appellant,
v.
LOU ARCHULETA, Warden; THE
ATTORNEY GENERAL OF THE STATE
OF COLORADO,

No. 20-1326
(D.C.No. l:14-CV-02276-SKC)
(D. Colo.)

Respondents - Appellees.
ORDER DENYING CERTIFICATE OF APPEALABILITY*
Before TYMKOVICH, Chief Judge, HOLMES, and McHUGH, Circuit Judges.
Jason Brooks is a Colorado prisoner.1 He seeks a certificate of appealability
(COA) to appeal the district court’s rulings on two motions in this habeas corpus case.
The first motion purported to request relief under Federal Rule of Civil Procedure
60(b)(6), and the second motion asked the district court to reconsider its ruling on the
first motion. We deny Mr. Brooks a COA and dismiss this matter.

* This order is not binding precedent except under the doctrines of law of the case,
res judicata, and collateral estoppel. It may be cited, however, for its persuasive value
consistent with Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.
i Mr. Brooks represents himself. We construe his filings liberally without going
so far as to assume the role of his advocate. See Hall v. Bellmon, 935 F.2d 1106, 1110
(10th Cir. 1991).

Appellate Case: 20-1326

Document: 010110490958

Date Filed: 03/09/2021

Page- 2

I. Background
In 2010, Mr. Brooks pleaded guilty in a Colorado court to securities crimes. He
received a thirty-two-year prison sentence. In 2014, he filed his first habeas corpus
petition under 28 U.S.C. § 2254. The petition failed. In the years since, Mr. Brooks has
filed three unsuccessful motions in this court seeking authorization to file a second or
successive § 2254 petition. And in 2017, he sought relief in the district court, purportedly
under Rule 60(b)(6), but the district court construed the filing as a second or successive
§ 2254 petition.
In 2020, Mr. Brooks filed the two motions that concern us here. In the first
motion, styled a Rule 60(b)(6) motion, Mr. Brooks attacked his Colorado convictions on
three theories, arguing that he did not sell “securities” as the term is used in the Colorado
Securities Act, that Colorado lacked jurisdiction to prosecute him, and that enforcing the
Colorado Securities Act violates due process. The district court construed the motion as
an unauthorized second or successive § 2254 petition and concluded that it lacked
jurisdiction to consider the merits of the claims. Mr. Brooks moved for reconsideration,
and the district court reiterated its jurisdictional ruling.
II. Discussion
The district court’s ruling that it lacked jurisdiction over the merits of
Mr. Brooks’s claims was a procedural ruling, hinging on its decision that the claims
should be treated as second or successive § 2254 claims even though Mr. Brooks labelled
them as Rule 60(b)(6) claims. To obtain a COA, then, Mr. Brooks must show “that

2

Appellate Case: 20-1326

Document: 010110490958

Date Filed: 03/09/2021

Page: 3

jurists of reason would find it debatable whether the district court was correct in its
procedural ruling.” Slack v. McDaniel, 529 U.S. 473, 478 (2000).
Mr. Brooks cannot make that showing. A district court lacks jurisdiction to
address the merits of a second or successive § 2254 claim unless the appropriate court of
appeals has authorized the claim to be filed. In re Cline, 531 F.3d 1249, 1251 (10th Cir.
2008). A Rule 60(b)(6) motion in a habeas corpus case will be treated as a second or
successive § 2254 petition if it asserts, or reasserts, “claims of error in the movant’s state
conviction.” Gonzalez v. Crosby, 545 U.S. 524, 538 (2005). Because the claims in
Mr. Brooks’s purported Rule 60(b)(6) motion attack his Colorado convictions, no
reasonable jurist could debate the district court’s decision to treat those claims as
unauthorized second or successive § 2254 claims.
Mr. Brooks does not dispute that his claims target his Colorado convictions.
Instead, he argues that his claims nevertheless fit under Rule 60(b)(6) because they arise
from extraordinary circumstances. This argument addresses the wrong question. To be
sure, relief under Rule 60(b)(6) is available only under extraordinary circumstances.
Gonzalez, 545 U.S. at 536. But the question before us is not whether Mr. Brooks

presented a meritorious motion under Rule 60(b)(6); the question is whether he presented
a motion under Rule 60(b)(6) at all. He did not. He presented § 2254 claims alleging
error in his Colorado convictions. The district court’s ruling that it lacked jurisdiction to
address the merits of those claims is not debatable. See Cline, 531 F.3d at 1251.

3

Appellate Case: 20-1326

Document: 010110490958

Date Filed: 03/09/2021

Page: 4

III. Conclusion
We grant Mr. Brooks’s motion to proceed without prepaying fees, deny his
application for a COA, and dismiss this matter.
Entered for the Court

CHRISTOPHER M. WOLPERT, Clerk

4

APPENDIX C

DATE FILED: December 23, 2020

Colorado Supreme Court
2 East 14th Avenue

Denver, CO 80203
Original Proceeding, Habeas Corpus
District Court, Weld County, 2009CR959
Petitioner:
Supreme Court Case No:

Jason Trevor Brooks,

2020SA385

v.
Respondents:
Executive Director of CDOC and Warden of the Sterling
Correctional Facility.
ORDER OF COURT

Upon consideration of the Request for Court to Assert Original Jurisdiction
Over Applicant’s Writ of Habeas Corpus filed in the above cause, and now being
sufficiently advised in the premises,
IT IS ORDERED that said Request shall be, and the same hereby is,
DENIED.
BY THE COURT, EN BANC, DECEMBER 23,2020.

APPENDIX D

DATE FILED: February 4, 2020

Colorado Court of Appeals
2 East 14th Avenue
Denver, CO 80203
Weld County
2009CR959

Defendant-Appellee:
Court of Appeals Case
Number:
2019CA2028

People of the State of Colorado,
v.

Plaintiff-Appellant:
Jason Trevor Brooks.
ORDER OF COURT
To: All Parties and the Clerk of the District Court
Upon consideration of appellant’s response to the Court's December 17,
2019, order and motion to file the notice of appeal out of time as to the judgment
of conviction entered on April 27, 2010, in case 09CR959, the Court determines
that appellant has not established that good cause exists to accept the notice of
appeal as timely filed. See People v. Baker, 104 P.3d 893 (Colo. 2005).
IT IS THEREFORE ORDERED that the appeal is DISMISSED with
prejudice.
BY THE COURT
Roman, J.
Welling, J.
Brown, J.

APPENDIX E

j

DATE FILED: March 6. 202 )

Colorado Supreme Court
2 East 14th Avenue
Denver, CO 80203
Original Proceeding
Court of Appeals. 2019CA2028
In Re:
Supreme Court Case No:
2020SA45

Plaintiff-Appellant:
Jason Trevor Brooks,
v.
Defendant-Appellee:
The People of the State of Colorado.
ORDER OF COURT

Upon consideration of the Petition for Rule to Show Cause in Re: Request to
File Out of Time Notice of Appeal Colorado Court of Appeals No. 2019CA2028
filed in the above cause, and now being sufficiently advised in the premises,
IT IS ORDERED that said Petition for Rule to Show Cause in Re: Request
to File Out of Time Notice of Appeal Colorado Court of Appeals No. 2019CA2028

shall be, and the same hereby is, DENIED.
BY THE COURT, EN BANC, MARCH 6, 2020.

'vwaAfi/VM') no7i

op. iaai o

APPENDIX F

19CA1032 Peo v Brooks 02-06-2020
COLORADO COURT OF APPEALS

DATE FILED: February 6, 2020

Court of Appeals No. 19CA1032
Weld County District Court No. 09CR959
Honorable Julie C. Hoskins, Judge

The People of the State of Colorado,
Plaintiff-Appellee,
v.
Jason Trevor Brooks,
Defendant-Appellant.

ORDER AFFIRMED
Division VII
Opinion by JUDGE LIPINSKY
Fox and Berger, JJ., concur
NOT PUBLISHED PURSUANT TO C.A.R. 35(e)
Announced February 6, 2020

Philip J. Weiser, Attorney General, Joesph G. Michaels, Senior Assistant
Attorney General, Denver, Colorado, for Plaintiff-Appellee
Jason Trevor Brooks, Pro Se

onfvwsnn/iT now

o

1 I

Defendant, Jason Trevor Brooks, appeals the district court's

order denying his most recent postconviction motion. We affirm.
I.
12

Background

In 2010, Brooks pleaded guilty to four counts of securities

fraud. As part of the plea agreement, he agreed to pay more than
$5.7 million in restitution.
13

The district court accepted the plea, sentenced Brooks to

thirty-two years in the custody of the Department of Corrections,
and ordered him to pay $5,131,760.96 in restitution.
14

Since then, Brooks has filed a plethora of postconviction

motions. His motions filed since 2015 all relate to a letter he
received that year from the Clerk of the Weld County Combined
Court informing him that, “[beginning September 12, 2015, interest
will be added at 1% per month of the current [restitution] balance.”
That letter was apparently based on a policy change regarding how
the state planned to implement section 18-1.3-603(4)(b)(1), C.R.S.
2015, which at the time mandated post-judgment interest on
restitution orders in the amount of “twelve percent per annum.”
(The interest rate has since been changed to eight percent per

1

OrVY5f«5iVM7 /V570 AQ.iO-M *

annum.) See People v. Ray, 2018 COA 158, TfTf 6-8, 452 P.3d 117,
120 (discussing the policy change announced in 2015).
5

The district court issued orders denying all of Brooks’s

postconviction motions. Divisions of this court affirmed the orders
that Brooks appealed. See People v. Brooks, (Colo. App. No.
18CA0336, Mar. 28, 2019) (not published pursuant to C.A.R. 35(e))
(Brooks IQ); People v. Brooks, (Colo. App. No. 16CA0755, June 29,
2017) (not published pursuant to C.A.R. 35(e)) (Brooks 71); People v.
Brooks, (Colo. App. No. 12CA1781, Mar. 6, 2014) (not published
pursuant to C.A.R. 35(f)) (Brooks 1).
16

Brooks purports to bring the postconviction motion at issue

here pursuant to Crim. P. 52(b), even though he previously raised
the same or similar postconviction claims pertaining to
post-judgment interest on restitution.
1i 7

The district court issued a written order denying the motion

without holding an evidentiary hearing.
II.
18

Standard of Review

We review the summary denial of a postconviction motion de

novo. People v. Medina, 2019 COA 103M, 1 4,
III.

Analysis
2

P.3d

19

Brooks purports to move for relief under Crim. P. 52(b), which

provides, “Plain errors or defects affecting substantial rights may be
noticed although they were not brought to the attention of the
court.” That rule does not apply here because Brooks brought his
claims regarding post-judgment interest on restitution to the
attention of the district court and this court.
1 10

Regardless, though, Brooks cannot use Crim. P. 52(b) to

circumvent Crim. P. 35. Crim. P. 35 specifically governs the filing
of postconviction motions, while Crim. P. 52(b) does not. Thus
Crim. P. 35 controls. Cf. Beren v. Beren, 2015 CO 29, If 11, 349
P.3d 233, 239 (“If different statutory provisions cannot be
harmonized, the specific provision controls over the general
provision.”). Brooks’s reliance on People v. Butcher, 2018 COA 54M,
P.3d

(cert, granted Apr. 22, 2019), is unavailing because

Butcher involved a direct appeal of a judgment, not an appeal of an
order denying a successive postconviction motion.
Ill

Brooks’s claims regarding post-judgment interest on

restitution are barred as successive. See Crim. P. 35(c)(3)(VI), (VII).
As the division explained in Brooks III, “even though the district
court denied [Brooks’s previous postconviction motions] on
3

AHTA 4 A 4A4 A C

procedural grounds, nevertheless, it resolved the claims as
contemplated by Crim. P. 35(c)(3)(VI).” See Brooks HI, f 16. Brooks
cannot continue to file postconviction motions and appeals seeking
to reassert these claims. See People v. Rodriguez, 914 P.2d 230,
249 (Colo. 1996) (“Rule 35 proceedings are intended to prevent
injustices after conviction and sentencing, not to provide perpetual
review”; “an argument raised under Rule 35 which does not
precisely duplicate an issue raised” in a prior proceeding will be
barred if it is an attempt to relitigate “the same issues on some
recently contrived” theory, (quoting People v. Bastardo, 646 P.2d
382, 383 (Colo. 1982))).
% 12

Although Brooks argues that Brooks II was wrongly decided,

the Colorado Supreme Court denied certiorari review of that ruling,
at which time Brooks if became the law of the case. See Hardesty v.
Pino, 222 P.3d 336, 340 (Colo. App. 2009) (the law of the case
doctrine provides that “both an appellate holding and its necessary
rationale” control future proceedings in the same case).
IV.
1[ 13

Conclusion

The order is affirmed.
JUDGE FOX and JUDGE BERGER concur.
4

?no5>rwnnd7 n?7n 4.vmi4 fi

18CA0336 Peo v Brooks 03-28-2019
COLORADO COURT OF APPEALS

DATE FILED: March 28, 2019

Court of Appeals No. 18CA0336
Weld County District Court No. 09CR959
Honorable Julie C. Hoskins, Judge

The People of the State of Colorado,
Plaintiff-Appellee,
v.
Jason Trevor Brooks,
Defendant-Appellant.

ORDER AFFIRMED
Division VII
Opinion by JUDGE ASHBY
Dunn and Nieto*, JJ., concur
NOT PUBLISHED PURSUANT TO C.A.R. 35(e)
Announced March 28, 2019

Philip J. Weiser, Attorney General, Patricia R. Van Horn, Senior Assistant
Attorney General, Denver, Colorado, for Plaintiff-Appellee
Jason Trevor Brooks, Pro Se
*Sitting by assignment of the Chief Justice under provisions of Colo. Const, art.
VI, § 5(3), and § 24-51-1105, C.R.S. 2018.

Defendant, Jason Trevor Brooks, appeals the district court’s
denial of his Crim. P. 32(d) motion. Because Brooks’ motion is
untimely as either a Crim. P. 32(d) or 35(c) motion, and also
successive under Crim. P. 35(c)(3)(VI), we affirm.
I. Background
In 2010, Brooks pleaded guilty to four counts of securities

12

fraud, and the prosecution dismissed the other twenty-two counts
in the criminal indictment. As part of the plea agreement, Brooks
agreed to pay restitution. The district court accepted the pleas,
sentenced him to thirty-two years in prison, and ordered him to pay
$5,132,352.46 in restitution.
13

Since then, Brooks has filed at least five unsuccessful

postconviction motions in the district court. Brooks appealed the
orders denying his first and fifth postconviction motions, and
divisions of this court affirmed those orders. See People v. Brooks,
(Colo. App. No. 12CA1781, Mar. 6, 2014) (not published pursuant
to C.A.R. 35(f)) (Brooks 7); People v. Brooks, (Colo. App. No.
16CA0755, June 29, 2017) (not published pursuant to C.A.R. 35(e))
(Brooks II).

1

Brooks filed the Crim. P. 32(d) motion at issue in this appeal

14

in December 2017 claiming that he had a right to withdraw his plea
because his plea was unknowingly and unintelligently entered. As
the basis for his claim, he alleged that he was not advised that he
would have to pay interest on the restitution amount before he
entered his plea. The district court denied the motion finding that
his allegations of ineffective assistance of counsel were insufficient
to allow him to withdraw his plea. This appeal followed.
15

Reviewing de novo the district court’s summary denial of

Brooks’ motion, we perceive no error. See People v. Gardner, 250
P.3d 1262, 1266 (Colo. App. 2010).
II. Crim. P. 32(d) Motion is Untimely
16

Crim. P. 32(d) provides that “[a] motion to withdraw a plea of

guilty . . . may be made only before sentence is imposed or
imposition of sentence is suspended.” Once the sentence has been
imposed, relief pursuant to Crim. P. 32(d) is not available. Kazadi
v. People, 2012 CO 73, % 14; Crumb v. People, 230 P.3d 726, 730
(Colo. 2010).
17

Here, because Brooks’ motion to withdraw his plea was filed

years after his sentencing, it is untimely. Kazadi, 1 14; see also
2

Glaser v. People, 155 Colo. 504, 507, 395 P.2d 461, 462 (1964)
(finding that “[t]here is no ambiguity in the rule as adopted by this
court. In plain language it says that a motion to withdraw a plea of
guilty may be made only before sentence is imposed.”).
Accordingly, we perceive no error in the district court's denial

13

of it, albeit on grounds other than those relied on by the district
court. See People v. Glover, 2015 COA 16, 1 22 (appellate court
may affirm on any grounds supported by the record).
III. Crim. P. 35(c) Motion is Untimely and Successive
19

Even though Brooks repeatedly characterizes his motion as a

motion to withdraw his plea under Crim. P. 32(d), because he is
seeking to withdraw his plea after sentencing and is alleging that
his plea was involuntarily and unknowingly entered, the motion is
cognizable under Crim. P. 35(c). Crim. P. 35(c)(2)(I) (grounds for
postconviction relief include when a conviction was entered in
violation of the constitutions or laws of the United States or
Colorado); see generally People v. Kirk, 221 P.3d 63, 64-65 (Colo.
App. 2009) (indicating that there are two situations in which a plea
can be withdrawn — before sentencing pursuant to Crim. P. 32(d)
or after sentencing pursuant to Crim. P. 35(c)). However even
3

under Crim. P. 35(c), Brooks is not entitled to relief because the
motion is both untimely and successive.
% 10

Absent justifiable excuse or excusable neglect, postconviction

challenges to non-class 1 felonies must be brought within three
years of the conviction becoming final. § 16-5-402(1), (2)(d), C.R.S.
2018; see People v. Abad, 962 P.2d 290, 291 (Colo. App. 1997).
Here, Brooks' conviction became final when he was sentenced in
2010. See People v. Hampton, 857 P.2d 441, 444 (Colo. App. 1992),
affd, 876 P.2d 1236 (Colo. 1994) (absent a direct appeal, a
conviction becomes final upon entry of the guilty plea and
imposition of the sentence). Therefore, because Brooks filed this
motion at least seven years after his conviction became final and
has not alleged justifiable excuse or excusable neglect, it is time
barred. See Abad, 962 P.2d at 291 (defendant bears the burden of
establishing justifiable excuse or excusable neglect for an untimely
motion).
1 11

Moreover, Brooks' claim that his plea is invalid because he

was not advised that interest would be assessed on his restitution
prior to him entering his guilty plea is similar to, if not identical to,
the claims he raised in both his August 2015 and March 2016
4

postconviction motions. See Brooks 77, slip op. at 6. Therefore,
because this issue was raised in previous postconviction motions,
the district court was required to deny it in accordance with Crim.
P. 35(c)(3)(VI). Crim. P. 35(c)(3)(VI) (the district court shall deny any
claim that was raised and resolved in a previous postconviction
proceeding); see People v. McDowell, 219 P.3d 332, 335 (Colo. App.
2009) (a defendant may not use postconviction motions as a means
of obtaining perpetual review of his conviction and sentence).
1 12

To the extent Brooks argues that Crim. P. 35(c)(3)(VI) cannot

be used to procedurally bar his claim because this claim has never
been resolved on the merits, we are not persuaded.
1 13

Crim. P. 35(c)(3)(VI) states that “[t]he court shall deny any

claim that was raised and resolved in a prior appeal or
postconviction proceeding on behalf of the same defendant.”
Contraiy to Brooks’ argument, that provision does not require the
prior claim to have been resolved on the merits before it can be
applied. Rather, it merely requires that the claim be raised and
resolved.
1 14

Here, the district court did not deny Brooks’ previous

postconviction motions without addressing his claims. Rather,
5

when it denied Brooks’ August 2015 motion, it acknowledged that
he was raising a new claim based on interest being charged on his
restitution, but that the motion was untimely and without
justifiable excuse or excusable neglect under section 16-5-402, and
successive to his previously filed motions. Brooks did not appeal
that order.
11 15

Similarly, in ruling on defendant's March 2016 postconviction

motion the district court addressed his claims finding that he was
not raising any new issues and his sentence was not illegal. As
noted above, a division of this court affirmed that order in Brooks II.
1! 16

Thus, even though the district court denied each of those

motions on procedural grounds, nevertheless, it resolved the claims
as contemplated by Crim. P. 35(c)(3)(VI).
1 17

Further, Brooks’ reliance on People v. Walker, 46 P.3d 495,

496-97 (Colo. App. 2002), to support his argument is misplaced.
There, the district court, in ruling on the defendant’s first
postconviction motion, addressed only one of his two claims. Then,
when the defendant filed a second postconviction motion asserting
the previously unresolved claim, the district court denied it as
successive. In reversing that order, a division of this court
6

concluded that because the district court had only addressed one of
the two claims in the first motion, it could not bar the subsequent
motion on successiveness grounds because the claim had not been
resolved on the merits. Id.
1 18

In contrast, here, the district court addressed Brooks’ previous

claims about the interest on his restitution, albeit by ultimately
concluding that those claims were procedurally barred.
Consequently, Walker is factually distinguishable, and therefore,
not applicable.
1 19

Finally, to the extent Brooks raises additional arguments in

his briefs on appeal, we decline to address them because they were
not raised in his postconviction motion to the district court. See
People v. Goldman, 923 P.2d 374, 375 (Colo. App. 1996) (stating
that defendant cannot raise new issue for first time on appeal from
denial of a postconviction motion).
f 20

The order is affirmed.
JUDGE DUNN and JUDGE NIETO concur.

7

Additional material
from this filing is
available in the
Clerk's Office.

